                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A04060045                                                          II          Page 1 o f 1       1
                                                                                                                1
         We were informed by an institution that it had conducted an inquiry into an allegation of possible
         data falsification. Based upon their inquiry, the Dean of the college1determined that allegations of
         research misconduct against the subject2were not substantive. Assessment of other work by the
         subject also provided no evidence of research misconduct. Following the research misconduct
         policy of the College, the Dean found no evidence of willful misconduct or intentional fraud,3 and
         closed the inquiry.4 Based on our evaluation of documents provided, we concur with the conclusion.

         Accordingly, this case is closed.




NSF OIG Fonn 2 (1 1/02)
